      Department of Homeland Security



        The State of Michigan’s Management of State

   Homeland Security Program and Urban Areas Security

    Initiative Grants Awarded During Fiscal Years 2007

                         Through 2009




OIG-12-114                                     August 2012

               ~
                _
               ;"
                    ...,.
                "«"IJ'@
                             ~

                            ..~   OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
                                    Washington. DC 20528 1 www.oig.dhs.gov


                                        AUG 30 .2012
MEMORANDUM FOR:                    Elizabeth M. Harman
                                   Assistant Adm ini strator
                                   Grant Programs Directorate
                                   Federal Emergency Management Agency

FROM:                               Anne L Richards     f2""", /W~'
                                    Assistant Inspector General for Audits

SUBJECT:                            The State of Michigan's Management of State Homeland
                                    Security Program and Urban Areas Security Initiative
                                    Grants Awarded During Fiscal Years 2007 Through 2009

Attached for your action is our final report, The State of Michigan's Management 0/
State Homeland Security Program and Urban Areas Security Initiative Grants Awarded
During Fiscal Years 2007 Through 2009. We incorporated the formal comments from
the Office of Policy and Program Analysis and State of Michigan officials in the final
report.

Th e report contains nine recomm endations aimed at improving the State's management
of State Homeland Security Program and Urban Areas Security Initiative grants. Your
office concurred with all nin e recomm endation s. State of Michigan officials also agreed
with the recommendations. Based on information provided in your response to th e
draft report, we consider recommend ations 1, 4, 5, 6, and 9 resolved and open. Once
your office has fully implemented the recommendations, please submit a formal
closeout letter to us within 30 days so that we may close the recommendations. The
memorandum should be accompanied by evidence of completion of agreed-upon
corrective actions and of the disposition of any monetary amounts.

Recommendations 2, 3, 7, and 8 remain unresolved and open. As prescribed by the
Department of Homeland Security Directive 077-1, Follow-Up and Reso lutions for the
Office of In spector General Report Recommendations, w ithin 90 days of the date of this
memorandum, pl ease provide our office with a written respon se that include s your
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessa ry to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations
w ill be consi dered open and unresolved.
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
   Inspector General for Audits, at (202) 254-4100.

   Attachment




www.oig.dhs.gov                               2                                      OIG-12-114
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2


   Results of Audit .................................................................................................................. 2


        The State of Michigan’s Grants Management Practices Were Generally Effective, 

         But Improvements Are Needed ................................................................................ 2


        UASI Regional Funds .................................................................................................... 3

        Recommendations ....................................................................................................... 7 

        Management Comments and OIG Analysis ................................................................. 8


        Oversight and Monitoring ............................................................................................ 9

        Recommendations ..................................................................................................... 11 

        Management Comments and OIG Analysis ............................................................... 11


        Federal Procurement Standards ................................................................................ 12 

        Recommendations ..................................................................................................... 13 

        Management Comments and OIG Analysis ............................................................... 13


        Federal Inventory and Property Standards ................................................................ 14

        Recommendation ....................................................................................................... 16 

        Management Comments and OIG Analysis ............................................................... 16


        State Administrative Agency’s Approval Processes ................................................... 17

        Recommendation ....................................................................................................... 19 

        Management Comments and OIG Analysis ............................................................... 19





www.oig.dhs.gov                                                                                                               OIG-12-114
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Appendixes

       Appendix A:   Objectives, Scope, and Methodology ................................................ 20
       Appendix B:   Management Comments to the Draft Report ................................... 22
       Appendix C    FEMA Homeland Security Grant Program ......................................... 33
       Appendix D:   State Homeland Security Program and Urban Areas Security
                     Initiative Funding ............................................................................... 34 

       Appendix E:   Project/Allowable Cost Approval Process .......................................... 35

       Appendix F:   Schedule of Monetary Findings ......................................................... 36

       Appendix G:   Major Contributors to This Report .................................................... 37 

       Appendix H:   Report Distribution ............................................................................ 38 



   Abbreviations

       CFR           Code of Federal Regulations
       DHS           Department of Homeland Security
       EHP           Environmental and Historical Preservation
       EMHSD         Emergency Management and Homeland Security Division
       FEMA          Federal Emergency Management Agency
       FY            fiscal year
       HSGP          Homeland Security Grant Program
       OIG           Office of Inspector General
       SAA           State Administrative Agency
       SHSP          State Homeland Security Program
       UASI          Urban Areas Security Initiative




www.oig.dhs.gov                                                                                                  OIG-12-114
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) has
   completed an audit of the State of Michigan’s management of State Homeland Security
   Program and Urban Areas Security Initiative grants in accordance with Public Law 110­
   53, Implementing Recommendations of the 9/11 Commission Act of 2007. The audit
   objectives were to determine whether the State of Michigan spent grant funds
   effectively and efficiently and complied with applicable Federal laws and regulations;
   and the extent to which funds awarded enhanced its ability to prevent, prepare for,
   protect against, and respond to natural disasters, acts of terrorism, and other manmade
   disasters. The audit included a review of approximately $98 million in State Homeland
   Security Program and Urban Areas Security Initiative grants awarded to the State of
   Michigan during fiscal years 2007 through 2009.

   The State of Michigan generally spent grant funds effectively, efficiently, and in
   compliance with applicable Federal laws and regulations. However, it did not ensure
   that the Urban Area Board conducted sufficient oversight of Urban Areas Security
   Initiative grant funds, that funds were allocated proportionate to associated risk, or that
   State actions regarding the use of regional funds were transparent. In addition, the
   State of Michigan did not have adequate oversight controls in place to ensure that
   subgrantees implement only projects aligned with approved investment justifications;
   follow Federal procurement and property standards; and receive grant funds in a timely
   manner. The State of Michigan has recently implemented a process to measure its
   preparedness. However, because of the recent implementation of this change, we did
   not evaluate the new process.

   Our nine recommendations call for the Federal Emergency Management Agency (FEMA)
   to initiate improvements which, when implemented, should help strengthen program
   management, performance, and oversight. FEMA concurred with all nine
   recommendations. State of Michigan officials also agreed with the recommendations.
   Written comments to the draft report are incorporated as appropriate and included in
   their entirety in appendix B.




www.oig.dhs.gov                                 1                                      OIG-12-114
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Background
   FEMA awarded the State of Michigan (State) approximately $111.8 million in Homeland
   Security Grant Program (HSGP) funds during fiscal years (FYs) 2007 through 2009. As
   part of this program, the State received $98 million for State Homeland Security
   Program (SHSP) and Urban Areas Security Initiative (UASI) grants. (See appendix D for
   total SHSP/UASI grant funds by year.)

   In 2003, by Executive order, the Governor of Michigan designated the Michigan State
   Police Emergency Management Division and the Director of the Department of State
   Police to administer homeland security response activities. The division was renamed
   the Emergency Management and Homeland Security Division (EMHSD) in 2006. In 2009,
   another Executive order reaffirmed the EMHSD as the State Administrative Agency
   (SAA) for HSGP funds. The EMHSD (grantee) administers all HSGP funds in addition to
   its other emergency management responsibilities. The Director of the Department of
   State Police serves as the State Director of Emergency Management and Homeland
   Security.

   In February 2008, DHS OIG issued a report on the State of Michigan’s use of grant
   funds.1 OIG concluded that the SAA did an adequate job administering program
   requirements related to identifying statewide needs and strategy, disbursing grant
   funds, and ensuring that all of the available funds were used. However, the SAA did not
   have a documented analysis of how effective its efforts had been in preparing first
   responders for terrorist incidents. All recommendations were resolved and closed in
   July 2010.

   Results of Audit
           The State of Michigan’s Grants Management Practices Were Generally
           Effective, But Improvements Are Needed

           The State of Michigan generally spent grant funds effectively, efficiently, and in
           compliance with applicable Federal laws and regulations. Its strategic plans
           linked funding to all-hazards capabilities and to goals that were established
           based on risk assessments. It also implemented a process to approve allowable
           grant-related costs before subgrantees expended funds and requested
           reimbursements. (See appendix E for a description of the project/allowable cost
           approval process.)



   1
    The State of Michigan’s Management of State Homeland Security Grants Awarded During Fiscal Years
   2002 through 2004 (OIG-08-26), dated February 2008.


www.oig.dhs.gov                                     2                                           OIG-12-114
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           However, although the SAA had a noteworthy process to approve allowable
           grant-related costs, it did not ensure that the Urban Area Board conducted
           sufficient oversight of UASI grant funds, that funds were allocated proportionate
           to associated risk, or that SAA actions regarding the use of regional funds were
           transparent. In addition, the SAA did not have adequate oversight controls in
           place to ensure that subgrantees implemented only projects aligned with
           approved investment justifications, followed Federal procurement and property
           standards, and received grant funds in a timely manner.

           UASI Regional Funds

           The Fiscal Years 2007 through 2009 Homeland Security Grant Program Guidance
           and Application Kits state that the UASI program is intended to enhance regional
           preparedness efforts. Urban areas must use these funds to employ regional
           approaches. However, we identified the need for improved oversight by the
           UASI Board of funds provided to the UASI regions. In addition, the UASI funding
           methodology to the counties appears disproportionate to the associated risks,
           and the SAA is not transparent on how it uses the UASI funds for the region’s
           priorities.

           Oversight of UASI Funds

           With the creation of the UASI program in 2003, DHS determined that the cities of
           Detroit, Sterling Heights, Warren, and a 10-mile buffer extending from the
           border of the combined urban area were at highest risk. With DHS’ acceptance,
           the SAA expanded the urban area in 2006 when it created seven statewide
           Homeland Security Regions, as shown in figure 1. One of the seven statewide
           regions (Region 2) was designated as the urban area.2 The EMHSD believed that
           regionalization would help subgrantees coordinate preparedness activities more
           effectively, spread costs, and share risk, thereby increasing the overall return on
           investment.




   2
    The current UASI region is made up of the City of Detroit and the counties of Macomb, Monroe,
   Oakland, St. Clair, Washtenaw, and Wayne. It includes 219 cities, villages, and townships.


www.oig.dhs.gov                                      3                                              OIG-12-114
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Figure 1. Current Homeland Security Regions and Urban Areas Security Initiative
           Region 2 Composition




                  Note: There is no Region 4. 

                  Source: State of Michigan – Emergency Management & Homeland Security.


           After the expansion of the UASI, the UASI Board was developed and charged
           with enhancing both inter- and intraregional capabilities to mitigate, protect
           against, respond to, and recover from large-scale disasters or other catastrophic
           events. The UASI Board is made up of voting members from the City of Detroit;
           the counties of Macomb, Monroe, Oakland, St. Clair, Washtenaw, and Wayne;
           and nonvoting members from disciplines such as health, maritime, and transit.

           According to the Southeast Michigan Urban Area Security Initiative Board By-
           Laws, one of the Board’s objectives is “Determining program priorities and
           subsequent funding allocations to enhance homeland security capabilities for
           the region through the established process for the current grant cycle.” The
           process established by the Board uses committees that are aligned with each of
           the UASI regional investments. All issues and recommendations for spending
           grant funds come from the committees and are brought to the UASI Board for
           approval. This process reflects a unified approach and regional coordination, but
           it is used only to oversee the “regional” funds. There is no Board oversight of the
           “local” funds allocated to each of the six counties.

           Of the total amount of UASI funding that the State receives from FEMA, the SAA
           is allowed to use 20 percent for direct support of the urban area. The remaining
           funds are allocated to the UASI region using two different methods. First, up to
           25 percent is used for projects that must benefit the UASI region as a whole;
           these are considered the “regional” funds that the UASI Board oversees with the


www.oig.dhs.gov                                   4                                        OIG-12-114
                               OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           help of the investment committees. The remaining “local” funds, approximately
           75 percent, are allocated to the six counties that make up the UASI region
           through a risk-based methodology. However, there was no evidence of
           oversight of these funds and there was no process in place in the Board By-laws
           as to who would ensure that these funds were spent properly or track progress
           on these projects. Table 1 identifies the dollar amounts for funds allocated
           during FYs 2007–2009.

           Table 1. UASI Funding Allocation
             Award Allocation       FY 2007         FY 2008        FY 2009         Total
            SAA share               $ 2,926,000 $ 2,838,200 $ 2,696,320          $8,460,520
            “Regional” share        $ 1,800,817 $ 2,838,200 $ 2,696,320          $7,335,337
            “Local” share           $ 9,903,183 $ 8,514,600 $ 8,088,960 $26,506,743
              Total                $14,630,000 $14,191,000 $13,481,600 $42,302,600
           Source: DHS OIG.

           During interviews with UASI region personnel, issues concerning the need for
           oversight by the UASI Board were raised. For example, one county representative
           said that he has concerns that some regions might be spending local funds on
           projects that do not necessarily match the objectives and strategy for the region.
           An official from another county said that there is no formal process in place to
           tell his county what to do with its money. A third county representative said that
           counties are supposed to report to the UASI Board on the projects funded with
           their local share, but only that county has done so. In addition to the need for
           oversight by the UASI Board, one official said that the counties within the region
           do not communicate with each other, resulting in possible duplication of efforts,
           specifically with regard to equipment purchases. UASI Board members
           acknowledged this issue, as documented in their board meeting minutes.

           According to the Fiscal Year 2009 Homeland Security Grant Program Guidance
           and Application Kit, the Urban Area Working Group (in this case, the Southeast
           Michigan UASI Board) is responsible for coordinating the development and
           implementation of all program initiatives. Further, the working group must
           ensure that its approach to critical issues such as grant management, grant
           administration, and funding allocation methodologies is formalized in a working
           group charter or other form of standard operating procedure related to the UASI
           governance. Although the By-laws are clear on the purpose and objectives of
           the Board, we saw no evidence of standard operating procedures on spending
           and project oversight by the Board for the more than $26 million in “local” UASI
           funds during FYs 2007–2009.


www.oig.dhs.gov                                5                                      OIG-12-114
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Risk-based Allocation

           The “local” share of the UASI funds is allocated to the six counties comprising the
           UASI area using a risk-based allocation method with four key criteria:
           population, population density, critical infrastructure/key assets, and Superfund
           Amendments and Reauthorization Act Title III sites (emergency planning on
           hazardous and toxic chemical sites). However, before the local share funds are
           allocated, the SAA gives each of the six counties an equal baseline amount.
           According to SAA officials, this baseline allotment is approximately 18 percent of
           the local funds available. According to the Fiscal Years 2007 through 2009
           Homeland Security Grant Program Guidance and Application Kits, all the funds
           that each county receives may be used to fund projects or buy equipment that
           each county deems necessary, as long as the funds are used to achieve the UASI
           region’s goals, objectives, and priorities in the UASI strategy.

           An SAA official said that the SAA’s reason for giving a baseline amount to each
           county was to follow a process similar to FEMA’s HSGP funding allocation
           methodology, whereby each of the 56 States and U.S. Territories receives a
           baseline amount before allocating based on risk. We note that FEMA included
           the HSGP baseline allocation because it was mandated by law, and States are not
           required to provide a baseline amount.

           The SAA’s funding allocation method does not appear to maximize financial
           assistance to meet the needs of the urban areas with the highest threat and
           population density, as intended by the UASI program. According to SAA officials,
           all counties in the UASI region receive a baseline amount before risk-based
           allocations are made. This funding model, which includes regional, baseline, and
           risk-based allocations, results in areas with the largest populations and
           potentially highest risk receiving a less-than-proportionate share of UASI funds.

           The SAA’s Use of UASI Funds

           The SAA says that it places a very high priority on ensuring that all HSGP projects
           reflect regional coordination and establish specific capability-based outcomes.
           However, the SAA can be more transparent on how funds are being used to
           meet the UASI region’s investments detailed in the UASI strategy. According to
           the Fiscal Years 2007 through 2009 Homeland Security Grant Program Guidance
           and Application Kits, the SAA must obligate 80 percent of the funds awarded
           under UASI grant to local units of government, and may use the other 20 percent
           at its discretion for the betterment of the UASI region. For FYs 2007–2009, the
           SAA retained almost $8.5 million (see table 1).




www.oig.dhs.gov                                 6                                      OIG-12-114
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Several UASI regional personnel we interviewed said they were unaware of how
           the SAA-retained funds are benefiting the region. For example, one official said
           that they are not sure what the SAA does with its portion of the UASI funds.
           Another official said that there is a limited amount of transparency over the
           money the SAA uses, and wishes the SAA could provide them with more
           information to show how the funds are helping the region. A lack of
           communication among the SAA, UASI Board, and city and county officials seems
           to be the main reason for the uncertainty.

           The Fiscal Years 2007 through 2009 Homeland Security Grant Program Guidance
           and Application Kits state that any UASI funds retained by the State must be
           used in direct support of the urban area. Furthermore, States must provide
           documentation to the Urban Area Working Group (UASI Board) and FEMA upon
           request demonstrating how any UASI funds retained by the State would directly
           support the urban area.

           Written procedures that are effectively implemented on the oversight of all UASI
           funds, along with improved communication between the principal UASI
           agencies, may enhance both inter- and intraregional capabilities to mitigate,
           protect against, respond to, and recover from disasters or other catastrophic
           events. In addition, even though there was no evidence of waste, better
           oversight and communication may help avoid wasting grant funds on duplicate
           projects, equipment, and training.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate for
           the Federal Emergency Management Agency:

           Recommendation #1:

           Direct the SAA to direct the UASI Board to establish procedures on oversight
           responsibilities over all UASI funds to ensure that all regional and local projects
           and investments are coordinated, projects are implemented, and progress is
           tracked.

           Recommendation #2:

           Direct the SAA to review the UASI funding allocation methodology to ensure that
           funds are spent on the highest-risk areas within the UASI region.




www.oig.dhs.gov                                  7                                       OIG-12-114
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #3:

           Direct the SAA to provide documentation to the UASI Board and region officials
           showing how funds retained by the SAA have been used to support the urban
           area.

           Management Comments and OIG Analysis

           FEMA concurred with recommendations 1, 2, and 3. In early 2011, language was
           added to the Urban Area Working Group Charter and subgrantee award
           documents to ensure meaningful local and regional coordination and
           collaboration of project activity. FEMA stated that in September 2012, it will
           monitor the UASI on-site and will verify that improvements to UASI oversight
           and coordination processes are being implemented efficiently and effectively
           and are consistent with UASI program guidance.

           FEMA recommends that recommendations 2 and 3 remain open for 90 days or
           until the SAA is able to demonstrate to FEMA that (1) UASI funds are being
           applied proportionate to areas of highest risk within the UASI region, and
           (2) programs and projects supported with UASI funds retained by the SAA are
           applied to programs and projects that directly support the urban area and are
           shared and coordinated with the UASI Board.

           The SAA agreed with recommendations 1, 2, and 3. According to the SAA, it has
           taken steps to improve the efficiency and effectiveness of the UASI program.
           The SAA directed the UASI Board to establish oversight procedures for all UASI
           funds to ensure that all investments and regional and local projects are
           coordinated and implemented, and that progress is tracked. The SAA’s
           directives were included in the grant agreement beginning with the FY 2010
           HSGP award.

           The SAA stated that it has reviewed the UASI funding allocation methodology
           and believes that the methodology does ensure that funds are spent on the
           highest-risk areas within the UASI region and that the methodology is in
           compliance with grant guidance. In addition, the SAA noted that FEMA does not
           require a particular funding allocation methodology. According to the SAA, its
           funding methodology used to award allocations to each UASI jurisdiction was
           modeled after the risk-based methodology developed by DHS to distribute funds
           nationwide.

           The SAA stated that it makes a quarterly PowerPoint presentation to the
           Homeland Security Advisory Committee to show the State’s progress on each
           objective in the State Homeland Security Strategy. To improve information flow,


www.oig.dhs.gov                               8                                     OIG-12-114
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           the SAA will make a presentation to the UASI Board annually, with an overview
           of new State Agency awarded projects supported by UASI funds.

           The actions proposed by FEMA and taken by the SAA meet the intent of
           recommendation 1. If properly implemented, the actions identified in the
           responses should address the conditions identified during the audit. This
           recommendation is considered resolved and open, pending final implementation
           of the proposed corrective actions.

           The FEMA and SAA responses include positive steps for implementing
           recommendations 2 and 3. However, until FEMA provides a firm timetable for
           implementing the recommendations, these recommendations will remain
           unresolved and open.

           Oversight and Monitoring

           The SAA can improve its oversight and monitoring of its subgrantees in four
           different areas. Specifically, oversight of the project justification process needs
           to be improved to ensure that subgrantees implement only projects aligned with
           approved investment justifications. In addition, the SAA must oversee
           subgrantees to make sure they follow Federal procurement standards, as well as
           inventory and property standards, so that items are acquired and accounted for
           properly. Finally, the SAA needs to modify its subgrant agreement and
           purchasing processes to improve its timeliness in making grant funds available to
           subgrantees and expediting purchases for planned projects.

           Project Justifications

           FYs 2007–2009 grant agreements with FEMA require recipients to fund only
           projects included in the investment justifications3 submitted to DHS and
           evaluated through the peer review process. Each of the 3 grant years had
           specific investments under which approved projects were to be aligned. The
           SAA requires the subgrantees to submit project justifications that align with the
           investments. The project justifications must be submitted by the subgrantee and
           approved by the SAA prior to starting any project.

           For the subgrantees we selected (see appendix A for details), we tested 150 out
           of 499 projects (30 percent) approved by the SAA to be funded with FYs 2007–
           2009 SHSP or UASI grant funds. We reviewed quarterly reports, which included

   3
    The investment justification is the method by which States and urban areas request HSGP funding. It
   describes specific projects that will help enhance and sustain capabilities and achieve outcomes aligned
   with their respective homeland security strategies.


www.oig.dhs.gov                                        9                                              OIG-12-114
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


            project overviews and objectives, and compared them with baseline purposes
            and descriptions, funding plans, and accomplishments included in the
            corresponding investment justifications approved by FEMA. Of the 150 SAA-
            approved projects, we determined that 14 project justifications were aligned
            with the wrong investment justification, and another 12 were aligned with
            multiple investment justifications.

            An SAA official said that the misalignments and multiple alignments occurred
            because the subgrantees responsible for filling out the project justification form
            were not being adequately trained on aligning projects with investments and
            documenting them properly on the form. In addition, it appeared that the SAA
            did not identify and document the discrepancy on the original project and return
            it to the subgrantee for correction, but rather approved the original document.

            According to the SAA’s standard operating procedure on DHS subgrantee project
            monitoring and reporting, the Performance and Reporting Unit is to evaluate
            project justifications for completeness, focusing on alignment with the
            investments approved for the award and objectives to be accomplished with the
            project. If projects are misaligned under the wrong investment justification,
            budgeting and reporting information could be erroneous, projects and
            equipment purchases could be duplicated, and the SAA could be submitting
            unallowable costs to FEMA.

            SAA officials acknowledged the misalignments of the project justifications.
            Although the SAA says that it is making changes to the process, including revised
            forms and improved training, issues remain with some justifications whose
            misalignment could result in unallowable costs.

            As an example, an SAA-approved project costing $517,000 purportedly aligned
            under UASI Investment #3, “Enhance Regional Fusion Capability to gather,
            analyze, and disseminate information to all sectors.” However, the project
            overview describes enhanced activities for a membership-driven law
            enforcement management information system used by police and sheriff’s
            departments. The system provides members access to information such as
            electronic citations, accident reports, fingerprints, and mug shots. The approved
            investment, which supports the establishment of a fusion center,4 and the
            project description (law enforcement management system) do not appear to

   4
    Fusion centers are analytical and information-sharing entities that bring agencies together to assess local
   implications of threat information in order to better understand the general threat picture. These centers
   analyze information and identify trends to share timely intelligence with Federal, State, and local law
   enforcement, including DHS, which then share this information with other members of the Intelligence
   Community.


www.oig.dhs.gov                                        10                                              OIG-12-114
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           match. This project was approved by the SAA and implemented even though it
           was not aligned with a FEMA-approved investment justification. This investment
           justification (UASI Investment #3) is unique to the fusion center and should not
           have been used as justification for any other projects.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate for
           the Federal Emergency Management Agency:

           Recommendation #4:

           Direct the SAA to improve oversight and monitoring of the subgrantees’ project
           justifications to ensure that subgrantees implement only projects included in
           FEMA-approved investment justifications, and improve subgrantee training on
           preparation of the project justification form.

           Recommendation #5:

           Review the SAA’s project justifications to determine whether they are correctly
           aligned with approved investment justifications, and if not, determine whether
           any projects result in questioned or unallowable costs.

           Management Comments and OIG Analysis

           FEMA concurred with recommendations 4 and 5. During 2011, FEMA randomly
           reviewed the SAA’s project justifications for multiple regions across the State as
           well as all project justifications from the UASI for the grant years referenced.
           Although there was evidence of some misaligned projects having been approved,
           corrections were made through Investment Justification modifications. FEMA
           reviewed the SAA’s business process for project justifications and approval and
           found that safeguards are in place to mitigate the potential for unallowable cost.
           FEMA also stated that the SAA makes available to subgrantees technical
           assistance and training for project justification preparation through SAA-
           sponsored conferences, workshops, and on-site visits.

           In August 2012, FEMA will monitor the SAA on-site and will again review and
           verify that subgrantee projects align with FEMA-approved Investment
           Justifications and that adequate safeguards are in place. In addition, FEMA will
           review the State’s project justifications for the grant years referenced to
           determine whether they are correctly aligned with approved Investment
           Justifications and whether corrective actions are necessary to address any
           questionable or unallowable cost.


www.oig.dhs.gov                                11                                     OIG-12-114
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           The SAA agreed with recommendations 4 and 5. The SAA believes that this is a
           documentation issue related to implementing a new process. According to the
           SAA, it developed and implemented the Project Justification/Allowable Cost
           Justification/Quarterly Reporting process for the FY 2007 Homeland Security
           grants. As with any new process, there is a learning curve for using and
           understanding the process. The SAA stated that it has identified the problems
           and updated the forms to facilitate accurate completion. State agencies now
           must attend mandatory training to be eligible to submit projects, and additional
           training is provided for local subgrantees at annual regional grant roll-out
           presentations and fiduciary training. According to the SAA, additional processes
           have been implemented to improve documentation of the review and approval
           of the alignment with investments.

           The SAA stated that it has submitted supplemental documentation to FEMA that
           identifies that the planned projects are correctly aligned with approved
           investments and all are allowable. It is the SAA’s understanding that FEMA has
           reviewed the supplemental information and has determined that the projects
           are aligned with an approved investment and are allowable.

           The actions proposed by FEMA and taken by the SAA meet the intent of
           recommendations 4 and 5. If properly implemented, the actions identified in the
           responses should address the conditions identified during the audit. These
           recommendations are considered resolved and open, pending final
           implementation of the proposed corrective actions.

           Federal Procurement Standards

           Although the SAA refers to procurement regulations in its grant agreements, it
           can improve its monitoring of subgrantees to ensure that they are in compliance
           with Federal procurement requirements. Specifically, we noted that several
           subgrantees did not document their procurement process and maintain
           adequate records to detail the significant history of a procurement as required in
           the Code of Federal Regulations (CFR), Title 44 §13.36. The SAA performs only a
           single onsite monitoring review of subgrantee procurement procedures during
           closeout of a grant award.

           We reviewed 38 procurement actions executed during the scope of our audit
           and found 14 instances where subgrantees awarded noncompetitive contracts
           and did not provide supporting documentation to justify their actions. Federal
           regulation 44 CFR 13.36(a) requires grantees and subgrantees to follow the same
           policies and procedures they use for procurements from non-Federal funds as
           long as they conform with applicable Federal law. For example, one subgrantee
           procured a 3-month rental of a traveling exhibition for $40,000. The subgrantee


www.oig.dhs.gov                                12                                     OIG-12-114
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           paid for the service before receiving adequate documentation from the vendor
           regarding the sole source procurement. There was no documentation in the
           procurement file supporting the subgrantee’s research of other vendors capable
           of presenting a similar exhibit.

           As a result of the inadequate procurement documentation, purchases made
           could be unallowable, in which case funds used for those purchases should be
           returned to FEMA. In addition, without adequate documentation and
           compliance with Federal procurement regulations, there is an increased risk of
           not receiving full benefit for the funds expended. We identified an estimated
           $1 million in unsupported costs for the noncompetitive contracts awarded, as
           shown in table 2.

           Table 2. Number of Noncompetitive Contracts and Estimated Dollar Value
                                                         Number of      Contract
            Funding                       Fiscal Year
                                                         Contracts      Amount
            State Homeland Security                2007            8         $679,426
            Urban Areas Security Initiative        2007            6         $406,228
            Totals                                               14        $1,085,654
           Source: DHS OIG.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate for
           the Federal Emergency Management Agency:

           Recommendation #6:

           Direct the SAA to improve oversight to ensure that subgrantees follow Federal
           procurement requirements.

           Recommendation #7:

           Review costs associated with noncompetitive contracts and determine whether
           the costs are allowable and properly supported.

           Management Comments and OIG Analysis

           FEMA concurred with recommendations 6 and 7. FEMA will undertake on-site
           programmatic monitoring of Homeland Security Grant funds awarded to
           Michigan for the referenced grant years. During the visit, FEMA will formally


www.oig.dhs.gov                               13                                     OIG-12-114
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           review the SAA’s business process and procedures for ensuring subgrantee
           compliance with Federal procurement requirements.

           Staff of FEMA’s Grant Programs Directorate, in concert with FEMA’s Region 5
           financial analyst, will review costs associated with noncompetitive contracts
           referenced in the OIG report and determine whether the costs are allowable and
           properly supported. FEMA recommends that recommendation 7 remain open
           for 90 days or until the SAA is able to substantiate the status of all unsupported
           cost findings and noncompetitive contracts referenced in the report.

           The SAA agreed with recommendations 6 and 7. According to the SAA, it strictly
           adheres to all Federal procurement policies and regulations, including Federal
           grant guidance, regarding procurement actions. The SAA notifies subgrantees of
           procurement requirements in the grant agreements, trains subgrantees during
           grant roll-out presentations, and reviews procurement procedures and
           transactions of subgrantees during on-site monitoring visits. To improve
           oversight, the SAA stated that it prepared an informational bulletin on
           procurement issues that was disseminated to all HSGP subgrantees and
           conducted additional training on procurement requirements for all HSGP
           fiduciaries.

           The SAA believes that the issue related to recommendation 7 is a documentation
           issue and not one of unallowable or questioned costs. The SAA will submit
           supplemental information to FEMA to determine that the costs are allowable
           and properly supported.

           The actions proposed by FEMA and taken by the SAA meet the intent of
           recommendation 6. If properly implemented, the actions identified in the
           responses should address the conditions identified during the audit. This
           recommendation is considered resolved and open, pending final implementation
           of the proposed corrective actions.

           The responses of FEMA and the SAA include positive steps for implementing
           recommendation 7. However, until a firm timetable for implementing the
           recommendation is provided by FEMA, this recommendation will remain
           unresolved and open.

           Federal Inventory and Property Standards

           We identified instances in which subgrantees did not consistently follow Federal
           inventory and property standards in 44 CFR 13.32. Our review of 15 subgrantees
           that had acquired equipment showed that 4 of the 15 did not have adequate
           inventory controls in place. We identified incomplete property records that did


www.oig.dhs.gov                                14                                     OIG-12-114
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           not include critical information such as costs, serial numbers, and location
           identifiers. We also identified situations in which equipment purchased with
           grant funds was not properly secured.

           For example, in one case a subgrantee purportedly allowed a private citizen to
           store and use a $12,000 AM/FM portable radio transmitter to broadcast traffic
           and travel information to the attendees of a community event (neighborhood
           holiday light show). According to SAA officials, the holiday light show attracts a
           large volume of vehicles, causing traffic delays along deputy-controlled routes to
           and from the neighborhood. Although the county emergency manager placed
           the transmitter at the site, the private citizen keeps the transmitter in his garage
           during the holiday season instead of its being adequately secured by the
           subgrantee. A sticker on the transmitter reads, “This piece of equipment was
           purchased with DHS grant funds.” An official with the subgrantee said that the
           citizen did not maintain the equipment, but that it was held by the local police
           department and an agreement exists between the police department and the
           citizen. However, we did not receive a copy of such an agreement in response to
           our request.

           Also, a grant-funded radio costing more than $7,500 was housed in a mobile
           command vehicle for use during emergencies to coordinate actions of police and
           fire departments. Although the vehicle was held at an airport where adequate
           controls do exist, the subgrantee assigned responsibility and control of the
           vehicle to a private citizen who is not employed by FEMA, the State of Michigan,
           or the subgrantee. The citizen maintains a set of the vehicle’s keys and drives
           the vehicle, and is currently training another private citizen to operate the
           vehicle.

           Grantees and subgrantees receiving SHSP and UASI grant funds are required to
           comply with all applicable laws, regulations, and program guidance. Also,
           grantees and subgrantees are to maintain records sufficient to detail significant
           procurement history. Federal regulation 44 CFR 13.32 establishes procedures for
           managing equipment, whether acquired in whole or in part with grant funds, and
           includes the following minimum requirements:

                  Property inventory records must be maintained and must include 12 data
                  elements for each item: unit cost, description, source, acquisition date,
                  identification number, location, title holder, use, condition, percentage
                  purchased with Federal funds, ultimate disposition date, and sales price.
                  44 CFR 13.32(d)(1).




www.oig.dhs.gov                                 15                                      OIG-12-114
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                  A control system must be developed to ensure adequate safeguards to
                  prevent loss, damage, or theft of the property. Any loss, damage, or
                  theft shall be investigated. 44 CFR 13.32(d)(3).

           Inaccurate, incomplete, and missing records may impede subgrantees’ ability to
           make sound management decisions regarding future equipment needs and to
           prevent potential duplicate purchases.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate for
           the Federal Emergency Management Agency:

           Recommendation #8:

           Direct the SAA to improve oversight to ensure that subgrantees follow Federal
           inventory and property requirements, and adequately secure property
           purchased with grant funds.

           Management Comments and OIG Analysis

           FEMA concurred with recommendation 8. Staff of FEMA’s Grant Programs
           Directorate, in concert with a FEMA Region 5 financial analyst, will review the
           SAA’s business process for monitoring subgrantee compliance with Federal
           inventory and property requirements, and adequately securing property
           purchased with grant funds. FEMA recommends that recommendation 8 remain
           open for 90 days or until the SAA is able to demonstrate that processes and
           protocols are in place to ensure subgrantee compliance with Federal inventory
           and property requirements.

           The SAA agreed with recommendation 8. The SAA stated that it has included
           Federal property requirements in all grant agreements between the SAA and the
           subgrantees. In addition to identifying the requirements, the grant agreement
           specifically states that the subgrantee’s responsibilities include the requirements
           to annually submit a copy of the inventory to the SAA’s Audit Unit. Additional
           training was provided to subgrantees on the inventory and property requirements
           at the grant roll-out presentations. Equipment and property are reviewed during
           on-site monitoring. To improve oversight, the SAA stated that it has redesigned
           the property inventory control forms to capture each information element in the
           Federal inventory and property requirements.

           The responses of FEMA and the SAA include positive steps for implementing
           recommendation 8. However, until FEMA provides a firm timetable for


www.oig.dhs.gov                                16                                      OIG-12-114
                                       OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


           implementing the recommendation, this recommendation will remain
           unresolved and open.

           State Administrative Agency’s Approval Processes

           HSGP guidance requires each SAA to obligate at least 80 percent of the total
           grant program amount to local units of government, including identified urban
           areas, within 45 days of receipt of funds (60 days in FY 2007).

           Although the SAA allocated grant funds to subgrantees in accordance with
           Federal requirements, the funds were not available for expenditure in a timely
           manner. SAA officials indicated that subgrantees will not be eligible to receive
           reimbursement of grant funds until the SAA receives a fully executed subgrant
           agreement.

           We reviewed 43 subgrant agreements executed during FYs 2007–2009 and
           found that the SAA executed subgrant agreements an average of 348 days after
           FEMA award letters were issued. We calculated two distinct timeframes to
           come up with the number of days it took to execute the subgrantee agreement:
           first, the date from when FEMA sent the grant award letter to the SAA, and the
           SAA signed the grant agreement and sent the agreement to the subgrantees;
           and second, the time it took for the subgrantee to review the grant agreement,
           sign the agreement, and send it back to the SAA so the grant agreement could be
           executed and funds could be obligated. Figure 2 shows the average time each of
           these phases took and the total amount of time for the entire process during
           FYs 2007–2009.

                            Figure 2. Average Days Between Grant Award 

                               and Execution of Subgrant Agreements

                    400        378 
        361
                    350 

                                            69        307
                    300 
     165                               Days Between
                                                      79        Subgrant
                    250                                         Preparation and
             Days




                                                                Final Signature
                    200
                                                                Days Between Grant
                    150                    292                  Award and Subgrant
                    100 
     213                     228       Preparation

                     50 

                      0

                             FY 2007      FY 2008   FY 2009
           Source: DHS OIG.


www.oig.dhs.gov                                     17                                 OIG-12-114
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Although the SAA can realistically control only the time required to prepare, sign,
           and send the grant agreement to the subgrantees for their signature, we looked
           at the entire approval process to see where the delays were occurring. For
           example, for grant years 2007–2009, one county completed its subgrant
           agreements 518, 439, and 423 days, respectively, after the SAA received the
           award letter from FEMA. For the 2007 grant agreement, the SAA held the
           agreement for 368 days, while the county did not return the signed agreement
           for 150 days. In 2008, the SAA held the grant agreement for 328 days and the
           county held it for 111 days. In 2009, the SAA held the grant agreement for 220
           days and the county held it for 203 days.

           It is evident that both the SAA and subgrantee phases have delays, and the
           entire grant agreement process needs to be expedited. The SAA’s lengthy
           process to execute a subgrant agreement restricts the subgrantees’ ability to
           plan and expend funds to complete projects. As a result, subgrantees could
           experience delays in acquiring equipment, training, and performing exercises
           they need to prepare to address catastrophic events.

           Additionally, we reviewed 58 purchase approvals and found that the time the
           SAA took to approve purchases ranged from 1 to 176 days, with an average of 41
           days. Officials from two different regions reported SAA delays as a major
           constraint in the purchase of equipment. Because the SAA does not have a
           standard or target timeframe for responding to requests for purchase approvals,
           the purchase of critical equipment could be delayed.

           Part of the reason for the delays is that, in some instances, FEMA requires
           subgrantees to comply with Environmental and Historic Preservation (EHP)
           requirements and assess projects for environmental impact, with a few
           exceptions such as training and exercises.5 For example, on September 22, 2009,
           one subgrantee submitted a cost justification for two 911 consoles (workstations
           used by dispatchers in an emergency operation center), which was not approved
           until March 17, 2010, 176 days later. The SAA only conditionally accepted the
           cost justification pending a potential EHP review, as the project equipment
           included antennas. As a best practice, it would be beneficial for the SAA to
           remind subgrantees of the timeframes associated with EHP requirements early
           in the grant process so they can plan equipment purchase and installation.



   5
    According to the FY 2009 Homeland Security Grant Program Guidance and Application Kit, a “[r]ecipient
   shall not undertake any project having the potential to impact EHP resources without the prior approval
   of FEMA, including but not limited to communications towers, physical security enhancements, new
   construction, and modifications to buildings, … that are at least 50 years old … . Recipient must comply
   with all conditions placed on the project as the result of the EHP review.”


www.oig.dhs.gov                                       18                                            OIG-12-114
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           The existing approval processes significantly reduce time available for
           subgrantees to make expenditures and be reimbursed by the SAA and delay
           overall expenditure of grant funds.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate for
           the Federal Emergency Management Agency:

           Recommendation #9:

           Direct the SAA to assess the current processes for executing subgrant
           agreements and purchase approvals and work with all involved parties to
           identify opportunities to expedite the processes.

           Management Comments and OIG Analysis

           FEMA concurred with recommendation 9. FEMA has reviewed with the SAA the
           timeliness of subgrantee project approvals and is satisfied that the SAA moves as
           expeditiously as the various requirements of project approval will allow. During
           the August 2012 SAA on-site monitoring, FEMA will determine the additional
           progress for moving subgrant agreements toward the required 45-day obligation.

           The SAA agreed with recommendation 9. According to the SAA, it obligates
           grant funds to subgrantees in compliance with Federal requirements of 45 or
           60 days, and notifies all subgrantee by email and conference calls of their award
           amount. The SAA stated that it has also developed the Regional Investment
           Project Projection sheet for submission by the subgrantees to begin planning for
           the expenditure and timeframe of the grant award, and to encourage the
           regions to plan strategically for upcoming grant years. In addition, the SAA
           stated that it has reviewed the grant agreement and purchase approval
           processes to indentify efficiencies; implemented a requirement for the regional
           board to identify its fiduciary at least 60 days prior to receipt of the grant award
           letter; and significantly reduced the time for sending grant agreements to
           subgrantees.

           The actions proposed by FEMA and taken by the SAA meet the intent of
           recommendation 9. If properly implemented, the actions identified in the
           responses should address the conditions identified during the audit. This
           recommendation is considered resolved and open, pending final implementation
           of the proposed corrective actions.




www.oig.dhs.gov                                 19                                       OIG-12-114
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The audit objective was to determine whether the State of Michigan (1) spent grant
   funds effectively and efficiently, and (2) complied with applicable Federal laws and
   regulations and DHS guidelines. We also determined the extent to which funds awarded
   enhanced the ability of each grantee to prevent, prepare for, protect against, and
   respond to natural disasters, acts of terrorism, and other manmade disasters. The
   scope of the audit included the SHSP and UASI grant awards for FYs 2007–2009, as
   described in appendix C.

   The audit methodology included work at FEMA headquarters, State of Michigan offices,
   the urban area that received grants, and other subgrantee locations. We analyzed data,
   reviewed documentation, inspected equipment, and interviewed key State officials
   directly involved in the management and administration of the State of Michigan’s
   Homeland Security Grant Programs. The State of Michigan has recently implemented a
   process to measure its preparedness. However, because of the recent implementation
   of this change, we did not evaluate the new process.

   Our site visit selection was based on a judgmental sample based on combined SHSP and
   UASI grant awards for FYs 2007–2009. The top four regions and top six State agencies
   were selected for review, representing 83 percent and 90 percent of awards and
   81 percent and 92 percent of expenditures, respectively. One of the selected regions
   (Region 2) comprised the UASI, and included the City of Detroit and the six individual
   counties. We conducted site visits at the following 17 organizations:

      1. Region 1              10. Washtenaw County
      2. Region 2              11. Wayne County
      3. Region 3              12. Department of Community Health
      4. Region 6              13. Department of Military and Veterans Affairs
      5. City of Detroit       14. Department of Transportation
      6. Macomb County         15. Emergency Management and Homeland Security
      7. Monroe County         16. Michigan Department of State Police
      8. Oakland County        17. State Administrative Agency
      9. St. Clair County




www.oig.dhs.gov                               20                                     OIG-12-114
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   For our compliance test work, we selected the following samples:


           Project Justifications – judgmentally selected 150 out of 499 projects approved 

           by the SAA and funded with FYs 2007–2009 SHSP or UASI grant funds, 


           Inventory and Property Standards – tested 15 out of the 17 subgrantees visited
           that acquired equipment during the scope of our review,

           Subgrant Agreements – reviewed all 43 grant agreements during the scope of
           our review for the subgrantee site visits,

           Federal Procurement Standards – reviewed 38 judgmentally selected
           procurement actions executed during the scope of our review, and

           Purchase Approvals – reviewed 58 purchase approvals.

   We conducted this performance audit between October 2010 and January 2012,
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




www.oig.dhs.gov                               21                                      OIG-12-114
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                           U.S. 1>fparl lnf nl of I lome1antl Srturil~'
                                                                                            Washington. DC 20472




                                                                               8                FEMA
                                                 JUl I 8 2012

             MEMORANDUM FOR:                Anne L. Richards
                                            Assistant inspector General for Audits
                                            Office of Inspector General

             FROM:                          David J. Kaufman
                                            Director
                                                                A/P
                                                                r~
                                            Office of Policy an Program Analysis

             SUBJECT:                       Comments to DIG/GAO Draft Report, The Slate of Michigan 's
                                            Management a/SUIte Homelalld Security Program and Urban
                                            Areas Security Initiative Grants Awarded During Fiscal Years
                                            2007 through 2009


             Thank. you for the opportunity to comment on the draft report, The State of Michigan 's
             Management a/State Homeland Security Program and Urban Areas Security Initiative (UASI)
             Crants Awarded During Fiscal Years 2007 through 2009 (project code 10- 172-AVD-FEMA).
             The findings in the report will be used to strengthen the effectiveness and efficiency of how we
             execute and measure our programs. We recognize the need to continue to improve the process,
              including addressing the recommendations raised in this report. Our responses to the
             nine recommendations contained in this draft report are as follows:

             Recommendation #1: Direct the State to direct the UASI Board to establish procedures on
             oversight responsibilities over all VAS l funds to ensure that all regional and local projects and
             investments are coordinated, projects are implemented, and progress is tracked.

             FEMA Response : FEMA concurs with Recommendation # 1.
              In early 2011 , language was added to the Urban Area Working Group Charter and subgrantee
             award documents to ensure meaningful local and regional coordination and collaboration of
             project activity. In September of 2012, FEMA wi!] monitor the UAS I on-site and will verify that
             improvements to VASr oversight and coordination processes are being implemented with
             efficiency and effectiveness and consistent with UAS! program guidance.

             FEMA requests that the recommendation be resolved and open pending completion of the
             scheduled September 2012 on-site verifical ion of improvements to VAS! processes.

             Recommendation #2: Direct the State to review the UAS I funding allocation methodology to
             ensure that funds are spent on the highest.risk areas within the UAS I region.




www.oig.dhs.gov                                                  22                                                       OIG-12-114
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              FEMA Response: FEMA concurs with Recommendation #2.
              FEMA will review the methodology the State Administrative Agency (SAA) utilizes to allocate
              VASI funding and ensure VASI funds are spent on the highest-risk areas within the VASI
              region.

              FEMA recommends this recommendation remains open for 90 days or until such time that the
              SAA is able to demonstrate to FEMA that VASI funds are being applied proportionate to areas
              of highest risk within the VASI region.

              Recommendation #3: Direct the State to provide documentation to the UASI Board and region
              officials showing how funds retained by the State have been used to support the urban area.

              FEMA Response: FEMA concurs with Recommendation #3.
              In mid-2011, FEMA has received 'from the SAA general information of how VASI funds
              retained by the SAA for fiscal years 2007 through 2009 had been spent in support of the VASI.
              The information provided by the SAA is insufficient with respect to project detail. FEMA is
              requesting supplemental information from the SAA to ascertain funds retained by the State have
              been used in direct support of the VASI and are shared and coordinated with the VASI Board.

              FEMA recommends this recommendation remains open for 90 days or until such time that the
              SAA is able to demonstrate that programs and projects supported with VASI funds retained by
              the SAA are applied to programs and projects that directly support the Vrban Area and are
              shared and coordinated with the VASI Board.

              Recommendation #4: Direct the SAA to improve oversight and monitoring of the subgrantees '
              project justifications to ensure that subgrantees implement only projects included in
              FEMA-approved investment justifications, and improve subgrantee training on preparation of the
              project justification form.

              FEMA Response: FEMA concurs with Recommendation #4.
              During calendar year 20 II , FEMA randomly reviewed the SAA' s project justifications for
              multiple Regions from across the state and reviewed every project justification that emanated
              from the VASI for the grant years referenced. While there was evidence of some projects having
              been approved that did not align with the FEMA approved Investment Justification, corrections
              were made through Investment Justification modifications. In addition, FEMA reviewed the
              SAA' s business process for project justification and approval and found safeguards are in place
              to mitigate the potential for unallowable cost. FEMA is also aware that the 8AA makes available
              technical assistance and training to Michigan's subgrantees project justification preparation
              through SAA sponsored conferences, workshops and on-site visits.

              In August of2012, FEMA will monitor the SAA on-site and will again review and verify that
              subgrantee projects align with FEMA approved Investment Justifications and that adequate
              safeguards are in place to mitigate the potential for unallowable cost in the SAA's project
              justification and approval process.




www.oig.dhs.gov                                               23                                                 OIG-12-114
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              FEMA requests that the recommendation be resolved and open pending completion of the
              scheduled August 2012 on-site programmatic monitoring of Michigan 's Homeland Security
              Grant funds.

              Recommendation #5: Review the State 's project justifications to detennine whether they are
              correctly aligned with approved investment justifications, and if not, detennine whether any
              projects result in questioned or unallowable costs.

              FEMA Response: FEMA concurs with Recommendation #5.
              In August 2012, FEMA will conduct an on-site programmatic monitoring of Michigan's
              Homeland Security Grant funds. During the on-site monitoring, FEMA will review the State's
              project justifications for the grant years referenced to determine whether they are correctly
              aligned with approved Investment Justifications and if any corrective actions are necessary to
              address any questionable or Wlallowable cost.

              FEMA requests that the recommendation be resolved and open pending completion of the
              scheduled August 2012 on-site programmatic monitoring of Michigan' s Homeland Security
              Grant funds.

              Recommendation #6: Direct the SAA to improve oversight to ensure that subgrantees follow
              Federal procurement requirements.

              FEMA Response: FEMA concurs with Recommendation #6.
              In August of 20 12, FEMA will undertake on-site a programmatic monitoring of Homeland
              Security Grant funds awarded to Michigan for the referenced grant years. During the August
              visit, FEMA will fonnally review the SAA's business process and procedures for ensuring sub-
              grantee compliance with Federal procurement requirements.

              FEMA requests that the recommendation be resolved and open pending completion of the
              August 2012 on-site verification of the SAA's process and procedures relating to sub-grantee
              compliance with Federal procurement requirements.

              R«ommendation #7: Review costs associated with noncompetitive contracts and determine
              whether the costs are allowable and properly supported.

              FEMA Response: FEMA concurs with Recommendation #7.
               Staff ofFEMA's Grant Programs Directorate in concert with FEMA Region 5 financial analyst
              will review costs associated with noncompetitive contracts referenced in the OIG Report and
              detennine whether the costs are allowable and properly supported. Unsupported cost and
              noncompetitive contracts, that are found to be improperly executed, may result in reimbursement
              of Federal funds to the extent allowable by law.

              FEMA recommends this OIG recommendation remain open for 90 days or Wltil such time that
              the SAA is able to substantiate the status of all unsupported cost findings and noncompetitive
              contracts referenced in recommendation #7 of the OIG Report.




www.oig.dhs.gov                                               24                                                OIG-12-114
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              Recommendation #8: Direct the 8AA to improve oversight to ensure that subgrantees follow
              Federal inventory and property requirements, and adequately secure property purchased with
              grant funds.

              FEMA Response: FEMA concurs with Recommendation #8.
              8taffofFEMA's Grant Programs Directorate in concert with the FEMA Region 5 fmancial
              analyst will review the 8AA' s business process for sub-grantee monitoring as it relates to
              ensuring sub-grantee compliance with Federal inventory and property requirements, and
              adequately securing property purchased with grant funds.

              FEMA reconunends this OIG recommendation remain open for 90 days or lUltil such time that
              the SAA is able to demonstrate that processes and protocols are in place to ensuring sub-grantee
              compliance with Federal inventory and property requirements.

              Recommendation #9: Direct the 8AA to assess the current processes for executing subgrantee
              agreements and purchase approvals and work with all involved parties to identify opportunities
              to expedite the processes.

              FEMA Response: FEMA concurs with Recommendation #9.
              In FY 2011 FEMA documented that the 8AA executed sub-grantee agreements within 54 days of
              Michigan's receipt of the H8GP grant award. While this is just short of the 45 days required by
              program guidance, the 8AA continues to make progress. FEMA has also reviewed with the 8AA
              the timeliness of subgrantee project approvals and is satisfied the SAA moves as expeditiously as
              the various requirements of project approval will allow. Dwing the August 2012 SAA on-site
              monitoring, FEMA will detennine the additional progress for sub grant agreements towards the
              required 45 day obligation.

              FEMA requests that the recommendation be resolved and open pending completion of the
              scheduled August 2012 SAA monitoring visit, which should verify full compliance.

              Again, we thank you for the opportunity to review and comment on the subject draft report.
              Should you have any questions concerning our response, please feel free to contact our Acting
              Chief Audit Liaison, Gina Norton, at 202-646-4287.




www.oig.dhs.gov                                               25                                                  OIG-12-114
                                          OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security




                                                                  STATE OF MICHIGAN

         RICK SNYDER
                                                       DEPARTMENT OF STATE POLICE                                    COL. KRISTE KIBBEY ETUE
           GOVEIINOR                                                   LANSING                                                   DIRECTOR




                   July 9,2012

                   Mark Bell
                   Deputy Assistant Inspector General for Audit
                   Office of Audit
                   Office of Inspector General
                   Department of Homeland Security
                   Washington, DC 20528

                   Dear Mr. Bell:

                   Attached to this letter is the official response by the Emergency Management and Homeland
                   Security Division as State Administrative Agency of the Michigan State Police to the draft audit,
                   The State of Michigan's Management of State Homeland Security Program and Urban Areas
                   Security Initiative Grants Awarded During Fiscal Years 2007 through 2009.

                   We appreciate the opportunity to respond to this audit. If you have any questions or need
                   additional information, please contact me at (517) 241-0981.

                   Sincerely,


                 ~Jt;J.d~",-<
                 ~CqUelirfe Reese
                   Audit Manager



                   Attachment

                   cc Ms. Anne Richards, DHS
                      Ms. Jewel Butler, DHS
                      Mr. Michael Slviy, DHS
                      Mr. Patrick Tobo, DHS
                      Col. Kristie Kibbey Etue
                      Mr. Shawn Sible
                      Capt. W. Thomas Sands



                   H:EMHSDIOIG HSGP 07-091Final Response Letter




                         MICHIGAN STATE POLICE HEADQUARTERS . 333 SOUTH GRANO AVENUE. P.O. BOX 30634 • LANSING. MICHIGAN 48909
                                                          www.mIchig,n.govlmsp • (517) 332-2521




www.oig.dhs.gov                                                         26                                                                  OIG-12-114
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                                                 Michigan State Police
                            Emergency Management and Homeland Security Division (EMHSD)
                                         As State Administrative Agency (SM)
                                   Response to the Department of Homeland Security
                                              Office of Inspector General
                           State Homeland Security Program and Urban Areas Security Initiative
                                          Grants Awarded During Fiscal Years
                                                  2007 throug h 2009


                  Recommendation #1
                  Direct the SM to direct the UASI Board to establish procedures on oversight
                  responsibilities over all UASI funds to ensure that all regio nal and local projects and
                  investments are coordinated, projects are implemented, and progress is tracked.

                  Agency Response
                  The SM agrees vvith the recommendation. The SM has taken affirmative and
                  deliberate steps to improve the efficiency and effectiveness of the UASI program. The
                  SM directed the UASI Board to establish oversight procedures for all UASI funds to
                  ensure that all investments and regional and local projects are coordinated,
                  implemented, and that progress is tracked . The SM's directives were included in the
                  grant agreement beginning with the FY10 HSGP award. Specific requirements included:

                         a. A single point of contact between the SM and the Subgrantee .
                         b. The Regional Board Vllill review and approve all projects to be funded before
                            they are submitted to the Subgrantor for approval.
                         c. The Regional Board Vllill ensure all grant projects align to the approved
                            investments.
                         d. The Subgrantee will be required to submit: reports to the Subgrantor on the
                            status of all funding ; updated project and allocation information; and other
                            reports , as required by the Subgrantor to implement an investment-specific
                            reporting process.

                  Recommendation #2
                  Direct the SM to review the UASI funding allocation methodology to ensure that funds
                  are spent on the highest-risk areas within the UASI region.

                  Agency Response
                  The SM agrees vvith the recommendation . The SM has reviewed the UASI funding
                  allocation methodology and believes that the methodology does ensure that funds are
                  spent on the highest-risk areas Vllithin the UASI region and that the methodology is in
                  compliance with grant guidance. The Homeland Security Grant Program (HSGP)
                  Guidance and Application Kit does not require a particular funding allocation
                  methodology.

                  The SM's funding methodology used to award allocations to each UASI jurisdiction was
                  modeled after the risk-based methodology developed by DHS to distribute funds
                  nationwide. Each jurisdiction was awarded a baseline allocation, consistent with the
                  baseline percent used by DHS in the applicable grant fiscal year, and a risk-based
                  allocation . Risk is ca lculated as a function of threat, SARA Title III sites, critical




www.oig.dhs.gov                                                 27                                           OIG-12-114
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                  infrastructure and key resources, population and population density . The baseline and
                  risk·based aliocations, taken together, provide the jurisdictions with funding to ensure
                  sustainment of capabilities throughout the urban area while concentrating the
                  preponderance of available resources to those jurisdictions posed with the greatest risk .

                  lastly, it is important to note that FEMA does not require a particular funding allocation
                  methodology. FEMA stated in its response to the 2011 OIG Audit of The State of Texas
                  SHSP program, "FEMA GPD does not mandate that grantees administer a specific
                  allocation method in their subaward process, and it is therefore up to the state to
                  determine the most effective method of aliocation , whether to include risk or otherwise,
                  and to advise its sub recipients accordingly."

                  Recommendation #3
                  Direct the SM to provide documentation to the UASI Board and region officials showing
                  how funds retained by the State ha ve been used to support the urban area.

                  Agency Response
                  The SM agrees with the recommendation . The SM makes a quarterly pov.-er point
                  presentation to the Homeland Security Advisory Committee (HSAC), which is comprised
                  of Michigan's homeland security stakeholders and includes the regional board chairs .
                  The presentation is done to show the state's progress on each objective in the State
                  Homeland Security Strategy. Attendance at the HSAC meetings is voluntary. To better
                  improve information flow, an SAA presentation to the UASI Board will be made annually
                  with an overview of new State Agency awarded projects supported by UASI funds.

                  Recommendation #4
                  Direct the SM to improve oversight and monitoring of the subgrantees' project
                  justifications to ensure that subgrantees implement only projects included in FEMA-
                  approved investment justifications , and improve subgrantee training on preparation of
                  the project justification form.

                  Agency Response
                  The SM agrees with the recommendation. The 8M believes that this is a
                  documentation issue related to the implementation of a new process . The SM has
                  identified the problems and updated the forms to facilitate accurate completion . State
                  agencies now must attend mandatory training to be eligible to submit projects and
                  additional training is provided for loca l subgrantees at annual regional grant roll-out
                  presentations and fiduciary tra ining. Additional processes to improve documentation of
                  the review and approva l of the alignment to investments have been implemented.

                  The SM did not state that alignment to multiple investments is not allowed . In fact , due
                  to the nature of many investments, the likelihood that a project may align to multiple
                  investments is very likely. Also, the SM acknov.1edged the documentation problem with
                  misalignment of investments, not that the projects did not align to the investments.

                  The SM developed and implemented the Project Justification/Allowable Cost
                  Justification/Quarterly Reporting process for the FY07 Homeland Security grants for the
                  purpose of: ensuring alignment with investments awarded; justifying cost allowability;
                  and measuring accomplishments. As 'Nith any new process , there is a learning curve for
                  use and understanding the process . Some investments , although specific to priority
                  initiatives , may overlap relative to capabilities and overarching strategic goals being


                                                              2




www.oig.dhs.gov                                               28                                               OIG-12-114
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                  addressed. At times this caused confusion for some subgrantees. Additionally , some
                  projects may align to more than one investment and subgrantees did not alvvays identify
                  the most appropriate investment. In some instances, 5ubgrantees requested advice in
                  identifying the correct investment , but did not make the change on the form. We also
                  discovered that in many instances, the personnel that attended the training INefe not the
                  same personnel that completed the forms.

                  This resulted in forms being completed that may not ha ve accurately listed the correct
                  investment or may have listed multiple investments . During the project review process,
                  the project \MIS determined to be allowable and did align to one or more investments and
                  the State Homeland Security Strategy, even thought the investment listed on the form
                  may not ha ve been the appropriate selection.

                  Again, the SM has updated the forms, provided additional training and added
                  processes to improve the documentation of investment alignment for project justification .

                  Recommendation #5
                  Reviewthe SM's project justifications to determine whether they are correctly aligned
                  with approved investment justifications , and if not, determine whether any projects result
                  in questioned or unallowable costs.

                  Agency Response
                  The SM agrees with the recommendation. The SM has submitted supplemental
                  documentation to FEMA that identifies that the planned projects are correctly aligned
                  with approved investments and all are allowable . It is the SM's understanding that
                  FEMA has revievved the supplemental information and has determined that the projects
                  are aligned to an approved investment and are allowable.

                  Again, the issue identified is a documentation issue and not unallowable or questioned
                  costs . Of the 150 projects re viev.ed , 14 were identified as incorrectly aligned to the
                  wrong investment and 12 vvere identified as aligned to multiple investments. Due to the
                  nature of many investments, the likelihood that a project may align to multiple
                  investments is very likely and does not result in unallowable or questioned costs. With
                  regard to incorrect alignment, during the review process, the SM determined that the
                  proposed project did align to (at least) one of the approved investments even if not
                  properly listed on the form. The SAA acknowtedges that the correct investment was not
                  always appropriately documented, hovvever, this also does not result in unallo...vable or
                  questioned costs. In the event that a proposed project did not align to any investment,
                  the project was denied . The SAA has already implemented procedures to document on
                  the project justification form the correct investment alignment.

                  The supplemental documentation that the SAA sent to FEMA included significant
                  information on the $517,000 project identified as an example in the report. In the report,
                  the project description "a law enforcement management system" was described as not
                  matching the investment "the establishment of a fusion center." However, this
                  demonstrates a lack of understanding of both the project and the investment. The
                  project directly aligns to the investment , "Enhance Regional Fusion Capability to Gather,
                  Analyze and Disseminate Information to all Sectors," including the target capabilities,
                  objectives and investment milestones.




                                                               3




www.oig.dhs.gov                                                29                                               OIG-12-114
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                  The supplemental information has been re vie\oVed by FEMA and determined that the
                  projects align to an approved investment and are allov.-able.

                  Recommendation #6
                  Direct the SM to improve oversight to ensure that subgrantees follow Federal
                  procurement requirements.

                  Agency Response
                  The 8M agrees with the recommendation. The 8M strictly adheres to all Federal
                  procurement po licies and regulations, inclusive of Federal grant guidance, regarding
                  procurement actions. The SAA notifies subgrantees of procurement requirements in the
                  grant agreements, trains subg rantees during grant roll-out presentations , and re views
                  procurement procedures and transactions of subgrantees during on-site monitoring
                  visits. In addition to identifying the requirements, the grant agreement specifically states
                  that the subgrantee's responsibility includes the requirement to "Make all purchases in
                  accordance with federal and state grant guidance and local purchasing policies ."

                  To improve ove rsight, the 8M prepared an informationa l bulletin on procurement issues
                  that was disseminated to all H8GP subgrantees and the 8M conducted additional
                  training on procurement requirements to all H8GP fiduciaries ,

                  Recommendation #7
                  Review costs associated with noncompetitive contracts and determine ......nether the costs
                  are allowable and properly supported.

                  Agency Response
                  The SM agrees with the recommendation. Again, the SAA believes the issue identified
                  is a documentation issue and not unallowable or questioned costs. The SM will submit
                  supplementa l information to FEMA to determine that the costs are allowable and
                  properly supported . During the course of the audit, there was some miscommunication
                  between the auditors and subgrantees. Severa l subgrantees told the SM that they
                  were not aware that the documentation provided was not adequate and that they v.ould
                  have provided additional information if requested .

                  Recommendation #8
                  Direct the SM to improve oversight to ensure that subgrantees follow Federal inventory
                  and property requirements , and adequately secure property purchased with grant funds.

                  Agency Response
                  The SM agrees with the recommendation . The SM has included Federal property
                  requirements in all grant agreements between the SM and the subgrantees. In addition
                  to identifying the requirements, the grant agreement specifica lly states that the
                  subg rantee's responsibilities include the requirements to annually submit a copy of the
                  inventory to the SM's Audit Unit. Additional training was provided to subg rantees on
                  the inventory and property requirements at the grant roll-out presentations. Equipment
                  and property is reviewed during on-site monitoring visits,

                  To improve ove rsight, the SM has redesigned the property inventory contro l forms to
                  capture each information element in the federal inventory and property requirements.




                                                               4




www.oig.dhs.gov                                                 30                                               OIG-12-114
                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                  Recommendation #9
                  Direct the SM to assess the current processes for executing subgrant agreements and
                  purchase approvals and w::>rk with all involved parties to identify opportunities to
                  expedite the processes .

                  Agency Response
                  The SM agrees with the recommendation. The SM obligates grant funds to
                  subgrantees in compliance with federal requirements of 45 or 60 days. The SM notifies
                  all subgrantees by email and conference calls of their award amount. The SM ha s also
                  developed the Regional Investment Project Projection (RIPP) sheet for the subgrantees
                  to begin planning for the expenditure and time frame of the grant award which are
                  required to be submitted to the SM. One of the purposes for this initiative is to
                  encourage the regions to plan strategically for upcoming grant years.

                  Different circumstances have delayed the time in which the grant agreements have been
                  sent to the subgrantees . These delays include: local changes to regional board
                  representation ; regional board approval of fiduciaries; updating of grant agreements;
                  updating of project approval and reporting requirements; updates to requirements in the
                  supplemental guidance; and calculations of regio nal funding formulas.

                  HO\Neve r, there are a number of factors that may affect the time for approval:

                                 An Envi ronmental Historic Preservation (EHP) review by FEMA is
                                 required . The SAA has no control over the timeframe.

                             •   The date on the purchase request may be when the request was created
                                 but not reflect when the request was submitted to the SAA. The time
                                 difference between creation of the request and submittal can be
                                 substantial.

                                 Prioritization of projects funded with grants that are near the closeout date
                                 can temporarily delay approval of projects funded with later grant yea r
                                 funding .

                                 Waiting for resolution of an allowable cost determination from FEMA.

                                 Waiting for a response from the subgrantee to receive more detail about
                                 the request in order to determine allowability .

                  The SAA included EHP requirements in all grant agreements betv.Jeen the SAA and the
                  subgrantees. Additional training was provided to subgrantees on the EHP requirements
                  at the grant roll-out presentations. In fact, at the last programmatic monitoring visit in
                  2010. FEMA identified Michigan's EHP process as exemplary.

                  The SAA has reviewed the grant agreement process and purchase approval process to
                  identify efficiencies. The SAA has implemented a requirement for the regional board to
                  identify their fiduciary at least 60 days prior to receipt of the grant award letter. The SAA
                  has already significantly reduced the timing for sending grant agreements to
                  subgrantees.




                                                                5




www.oig.dhs.gov                                                 31                                                OIG-12-114
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                  The ave rage number of days betvveen the grant aVv'ard and sending the grant agreement
                  to subgrantees has reduced as fotlovvs:

                                         Grant A'Nard           Number of
                                           Year                   Days
                                         FY 2007                  213
                                         FY 2008                  292
                                         FY 2009                  228
                                         FY 2010                  128
                                         FY 2011                     68

                  The 8M has established a goa l of completing the review of purchase requests within 60
                  days. The 8M has also developed a purchase approva l request tracking mechanism to
                  identify the location of the request in the process and to identify any potentia l problems.




                                                               G




www.oig.dhs.gov                                                32                                                OIG-12-114
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix C
   FEMA Homeland Security Grant Program
   The Homeland Security Grant Program provides Federal funding to help State and local
   agencies enhance their capabilities to prevent, deter, respond to, and recover from
   terrorist attacks, major disasters, and other emergencies. The program encompasses
   several interrelated Federal grant programs that together fund a range of preparedness
   activities, including planning, organization, equipment purchase, training, and exercises,
   as well as management and administration cost. Depending on the fiscal year, the
   program includes some or all of the following programs:

       State Homeland Security Program funds support the implementation of State
       Homeland Security Strategies to address the identified planning, organization,
       equipment, training, and exercise needs to prevent, protect against, respond to, and
       recover from acts of terrorism and other catastrophic events.

       Urban Areas Security Initiative Program funds address the unique planning,
       organization, equipment, training, and exercise needs of high-threat, high-density
       urban areas, and assist the areas in building an enhanced and sustainable capacity to
       prevent, protect against, respond to, and recover from acts of terrorism.

       Law Enforcement Terrorism Prevention Program funds provide resources to law
       enforcement and public safety communities (working with private partners) to
       support critical terrorism prevention activities, including establishing and enhancing
       fusion centers.

       Citizen Corps Program funds bring community and government leaders together to
       coordinate the involvement of community members in emergency preparedness,
       planning, mitigation, response, and recovery.

       Metropolitan Medical Response System Program funds support designated
       jurisdictions to further enhance and sustain a regionally integrated, systematic mass
       casualty incident preparedness program that enables a response during the first
       crucial hours of an incident.




www.oig.dhs.gov                                33                                      OIG-12-114
                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Appendix D
   State Homeland Security Program and Urban Areas Security
   Initiatives Funding
           Michigan Homeland Security Grant Program Awards, Fiscal Years 2007–2009
              Funded Activity                      FY 2007         FY 2008        FY 2009         Total

  State Homeland Security Program                 $13,670,000     $21,430,000    $20,718,500    $55,818,500
       State Agencies                              $2,734,000      $4,286,000     $4,143,700    $11,163,700
       Region 1                                    $2,042,938      $3,325,750     $3,214,130     $8,582,818
       Region 2
                          Regional Funds                     $0       $277,375       $270,998       $548,373
                          City of Detroit                    $0       $189,354       $185,613       $374,967
                          Macomb County               $454,742        $105,234       $102,696       $662,672
                          Monroe County               $196,242         $50,938        $49,178       $296,358
                          Oakland County              $643,486        $151,417       $148,218       $943,121
                          St. Clair County            $310,898         $70,909        $68,862       $450,669
                          Washtenaw County            $302,623         $64,044        $62,095       $428,762
                          Wayne County                       $0       $200,229       $196,332       $396,561
       Region 3                                    $2,070,292      $3,485,750     $3,376,729     $8,932,771
                  6
       Region 5                                    $1,433,851      $2,775,750     $2,685,684     $6,895,285
       Region 6                                    $1,884,284      $3,895,750     $3,769,675     $9,549,709
       Region 7                                      $795,587      $1,275,750     $1,222,295     $3,293,632
       Region 8                                      $801,057      $1,275,750     $1,222,295     $3,299,102

  Urban Areas Security Initiative                 $14,630,000     $14,191,000    $13,481,600    $42,302,600
       State Agencies                              $2,926,000      $2,838,200     $2,696,320     $8,460,520
       Regional Funds                              $1,800,817      $2,838,200     $2,696,320     $7,335,337
       City of Detroit                             $2,823,037      $1,937,536     $1,846,770     $6,607,343
       Macomb County                                 $972,509      $1,076,793     $1,021,786     $3,071,088
       Monroe County                                 $522,957        $521,216       $489,290     $1,533,463
       Oakland County                              $1,175,037      $1,549,353     $1,474,714     $4,199,104
       St. Clair County                              $712,434        $725,565       $685,150     $2,123,149
       Washtenaw County                              $700,925        $655,320       $617,823     $1,974,068
       Wayne County                                $2,996,284      $2,048,817     $1,953,427     $6,998,528

  Total                                           $28,300,000     $35,621,000    $34,200,100    $98,121,100



   6
       Michigan does not have a Region 4.


www.oig.dhs.gov                                           34                                       OIG-12-114
                     OFFICE OF INSPECTOR GENERAL
                       Department of Homeland Security


   Appendix E
   Project/Allowable Cost Approval Process




   Source: OIG. 





www.oig.dhs.gov                    35                    OIG-12-114
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix F
   Schedule of Monetary Findings
                                 Schedule of Monetary Findings

                                                             Funds To Be
       Recommendation       Questioned      Unsupported
                                                             Put to Better        Total
           Number             Costs1           Costs2
                                                                 Use3

              7                              $1,085,654                        $1,085,654
         Totals                              $1,085,654                        $1,085,654
   Source: OIG prepared.
   1
       Questioned costs are funds expended on projects not included in approved
       investments identified.
   2
       Unsupported costs are funds expended for goods and/or services acquired using
       noncompetitive procurements without adequate justification.
   3
       Funds to be put to better use are unexpended costs for approved projects that were
       not included in approved investments identified.




www.oig.dhs.gov                                36                                      OIG-12-114
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   Appendix G
   Major Contributors to This Report
   Jewel Butler, Director
   Cheryl Jones, Audit Manager
   Patrick Tobo, Audit Manager
   Sandra Ward-Greer, Auditor-in-Charge
   Jeffrey Balsewicz, Program Analyst
   Marisa Coccaro, Program Analyst
   Virginia Feliciano, Auditor
   Kevin King, Independent Referencer
   Katrina Reuben-Bynes, Independent Referencer




www.oig.dhs.gov                           37                   OIG-12-114
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix H
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  38                        OIG-12-114
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
